City of Cleveland
Frank G. Jackson, Mayor

Department of Law
Barbara A. Langhenry, Director
601 Lakeside Avenue, Rm. 106
Cleveland, Ohio 44114-1077

216/664-2800 fax: 216/664-2663
www.cleveland-oh.gov

November 12, 2020
Via electronic filing
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Shase Howse v. Thomas Hodous, et al., Case No. 20-636

Dear Clerk:
Pursuant to Supreme Court Rule 30.4, Respondents respectfully move for a 60-day extension of time to file their
brief in opposition to the petition for a writ of certiorari.
An extension is sought for the following reasons:
(1) the 30-day period under Rule 15.3 to file a brief in opposition includes in this case two holidays, Veterans Day
and Thanksgiving Day;
(2) the undersigned counsel has limited staff support due to work restrictions established by counsel’s employer,
the City of Cleveland, related to the COVID-19 pandemic;
(3) additional time will permit Respondents to present a more focused and effective brief;
(4) a period of 90 days (the 30 days permitted under Rule 15.3 plus a 60-day extension of time) would be sufficient
time to complete the brief such that Respondents should not need to seek another extension; and
(5) One of Petitioner’s counsel has consented to a 60-day extension of time. The undersigned has contacted the
counsel of record, as designated on the Petition, but has not received a response as of the time of this filing.
Accordingly, Respondents hereby move the Court for a 60-day extension of time, until February 8, 2020, to file
their brief in opposition to the petition for a writ of certiorari.
Respectfully submitted,
/s/ Elena N. Boop
Elena N. Boop
Counsel of record for Respondents
cc:

Counsel for Petitioner

